BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound copy
and 40 bound copies of the foregoing Brief for Amici
Curiae American Civil Liberties Union, Cato Institute,
New York Civil Liberties Union, and Rutherford
Institute in Support of Petitioner in 20-659, Larry
Thompson v. Police Officer Pagiel Clark, Shield
#28472, et al., was sent via Next Day Service to the
U.S. Supreme Court, and via Next Day and e-mail
service to the following parties listed below, this 11th
day of June, 2021:
Amir H. Ali
Roderick & Solange MacArthur Justice Center
501 H St. NE
Suite 275
Washington, DC 20002
(202) 869-3434
amir .ali@macarthurj ustice .org

Counsel for Petitioner
Richard Paul Dearing
New York City Law Department
100 Church Street
New York, NY 10007
(212) 356-2500
rdearing@law.nyc.gov

I (800) 890.5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

www.beckergallagher.com

8790 Governor's Hill Drive

Franklin Square

Suite 102

1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

Devin Andrew Slack
New York City Law Department
100 Church Street
New York, NY 10007
(212) 356-0817
dslack@law.nyc.gov

Counsel for Respondents
Steven Edwards Art
Loevy & Loevy
311 N. Aberdeen St., 3rd Fl.
Chicago, IL 60607
(312) 243-5900
steve@loevy.com

Counsel for National, State, and Local Civil Rights,
Racial Justice, and Criminal Defense Organizations
Mary B. McCord
Institute for Constitutional Advocacy and Protection,
Georgetown University Law Center
600 New Jersey Ave., N.W.
Washington, DC 20001
(202) 661-6607
mbm 7@georgetown.edu

Counsel for Current and Former Prosecutors,
Department of Justice Officials, and Judges

Marisa C. Maleck
Counsel of Record
Joshua N. Mitchell
Edward A. Benoit
King & Spalding LLP
1700 Pennsylvania Ave. NW
Washington, DC 20006
(202) 737-0500
mmaleck@kslaw.com
jmitchell@kslaw.com
ebenoit@kslaw.com
David D. Cole
American Civil Liberties Union Foundation
915 15th Street NW
Washington, DC 20005
(212) 549-2611
dcole@aclu.org
Clark M. Neily III
Jay R. Schweikert
Cato Institute
1000 Mass. Ave. NW
Washington, DC 20001
(202) 842-0200
cneily@cato.org
Christopher T. Dunn
Molly K. Biklen
New York Civil Liberties Union Foundation
125 Broad Street, 19th Fl.
New York, NY 10004
(212) 607-3300

John W. Whitehead
Douglas R. McKusick
Rutherford Institute
109 Deerwood Road
Charlottesville, VA 22911
(434) 978-3888

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 11, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~c.

II, dOd(

ck ~.~
'

Notary Public
[seal]

JOHN 0. GALLAGHER
Notary Pt.ale,
ot Ohio
: 1y Commistlan Expires
' ' 11ry 14, 20 '3

